         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

Management of Facility Contractors
Assigned to the Washington, D.C.
Area




DOE/IG-0710                            November 2005
                                                 2



      •   Moving and other temporary living allowances paid to assignees varied significantly
          from contractor to contractor and, in some cases, appeared excessive.

These problems occurred because the Department had not developed and implemented a process
for determining whether assignment justifications: (1) were initially prepared; (2) supported the
need to extend assignments; (3) adequately considered alternative means for fulfilling critical
skill needs; and, (4) evaluated the reasonableness of cost. In addition, the Department had not
promulgated standards for dislocation and other allowances for contractor employees assigned to
the Washington, D.C. area. As a consequence, the Department lacked assurance that the cost of
technical and program support provided by the facility contractor personnel assigned to the
Washington, D.C. area was appropriate and necessary. In fact, annual employee costs averaged
$247,000, with costs as much as $576,000 per year for a technical and program support
contractor assignee, both fully burdened.

After being informed of our preliminary findings and in response to our previous report,
management committed to changes needed to improve the quality and accuracy of reporting and
initiated action to improve oversight and approval controls. While these actions are noteworthy,
additional action is necessary to ensure that these assignments are accomplished in the most
cost-effective manner available. Accordingly, we made several recommendations designed to
help those administering the assignment program determine whether these types of assignments
are adequately justified, reasonable in duration, and cost-effective.

MANAGEMENT REACTION

Management generally concurred with our recommendations and indicated that it had initiated
corrective actions to address the recommendations. Management emphasized that on
October 19, 2005, the Department issued DOE Notice 350.2, Supplemental Requirements for the
Use of Management and Operating or Other Facility Management Contractor Employees for
Services to DOE in the Washington, D.C., Area. If properly implemented, this directive should
strengthen oversight and assignment controls. Management's comments are summarized in our
report and are included in their entirety in Appendix 3.

Attachment

cc:   Deputy Secretary
      Under Secretary for Energy, Science and Environment
      Administrator, National Nuclear Security Administration
      Chief of Staff
      Director, Office of Management
      Director, Office of Procurement and Assistance Management
REPORT ON THE MANAGEMENT OF FACILITY CONTRACTORS
ASSIGNED TO THE WASHINGTON, D.C. AREA


TABLE OF
CONTENTS


      Facility Contractors in the Washington, D.C. Area

      Details of Finding ..................................................................................1

      Recommendations..................................................................................5

      Comments ..............................................................................................6


      Appendices

      1. Objective, Scope, and Methodology.................................................7

      2. Prior Audit Reports ...........................................................................9

      3. Management Comments .................................................................11
FACILITY CONTRACTORS IN THE WASHINGTON, D.C. AREA


Justification and       Although specifically required by existing policy,
Dislocation Allowance   program officials from various Department of Energy
Costs                   (Department) organizations did not always adequately
                        justify the need for initial or extended assignments of
                        facility contractor employees to the Washington, D.C. area.
                        Justifications were either not prepared or did not adequately
                        consider alternatives, costs, or fully validate the need for
                        long duration assignments. We also noted that dislocation
                        allowances varied significantly between contractors and, in
                        some cases, may be excessive.

                           Justifications for Initial or Extension of Assignments

                        Our testing revealed that justifications for the assignment of
                        facility contractor employees to the Washington, D.C. area
                        either had not been completed or were inadequate. As
                        noted in DOE Order 350.2A, program officials are required
                        to document their rationale for such assignments – to
                        include a discussion of factors considered in determining
                        whether the support is critical to the sponsoring offices'
                        operation or program. However, even though most of the
                        30 individuals we selected for detailed testing had been
                        providing local support for a number of years, we found
                        that justifications had not been prepared for 14, and that the
                        remaining 16 justifications were inadequate. Specifically,
                        the existing justifications did not provide evidence that the
                        elements required to demonstrate need were considered.

                        Justifications often did not describe the basis under which
                        officials determined that the services requested were
                        critical and whether alternatives, including the use of
                        Federal employees, had been considered. Several
                        justifications simply stated there were no other possible
                        alternatives to the contractor assignment, but did not
                        explain how other alternatives were explored. Several
                        other justification documents simply described the
                        employee's duties. While we noted that Program heads
                        continued to certify the continuing need for these
                        assignments each year, they did so without the benefit of
                        justifying documentation.

                        We determined that cost analyses required by existing
                        policy also had not been performed for any of the
                        assignments we reviewed. While the justifications often
                        included cost estimates, we found that, in many cases, there
                        were no details supporting the estimates, such as the costs
________________________________________________________________
Page 1                                            Details of Finding
_______________________________________________________

                      of dislocation allowances and other benefits. Program
                      officials told us that they frequently justified assignments
                      based solely on the facility contractor employee's
                      qualifications without regard to cost. In a number of
                      instances, we observed that program officials were unaware
                      of the detailed costs comprising the total cost of the
                      assignment and told us that we would have to contact the
                      facility contractors directly if we wished to reconstruct the
                      total cost of the assignment.

                      Many of the justifications we reviewed also did not
                      adequately address the need for long duration assignments
                      – some of which have been extended to as long as 15 years.
                      The Department requires that assignments be limited to one
                      year unless considered critical; however, we observed that
                      justifications were completed on a year-to-year basis, did
                      not reflect that alternatives were re-evaluated, and in many
                      instances, simply repeated the statement that there were no
                      alternatives to using the contractor employee. The
                      following table details the number of employees and the
                      length of their assignments as of the end of Fiscal
                      Year 2004:

                                     Extended Assignments
                          Length of Assignment                  Number of
                                                                Employees
                       Less than 1 year                            36
                       1 year to less than 3 years                   53
                       3 years to less than 5 years                  25
                       5 years to less than 10 years                 39
                       10 years to less than 15 years                28
                       Greater than 15 years                          8
                       Total Employees as of
                                                                     189
                       September 30, 2004


                                     Dislocation Allowance Costs

                      We also found that the costs associated with maintaining a
                      contract employee in the Washington, D.C. area varied
                      significantly depending on which contractor supplied the
                      employee. Specifically, we identified appreciable
                      differences in the amount and length of the temporary

________________________________________________________________
Page 2                                            Details of Finding
_______________________________________________________

                       living allowances provided, the amount allowed for
                       shipment of household goods, and the provision for
                       premium locality pay. These costs are generally called
                       dislocation allowances.

                       The amounts paid to Y-12 employees for temporary living
                       allowances were twice the amounts paid to employees from
                       Argonne National Laboratory. Employees from Sandia
                       National Laboratory also received per diem reimbursement
                       for up to four years, while employees at Oak Ridge
                       National Laboratory were restricted to two years. In
                       addition, some contractors authorized up to 18,000 pounds
                       for the shipment of household goods to the temporary duty
                       assignment, while others limited it to just 1,000 pounds.
                       Further, several contractors paid premiums or cost of living
                       adjustments to work in Washington, D.C., while others did
                       not.

                       We also identified instances where dislocation costs
                       appeared to be excessive. For example, Lawrence
                       Livermore National Laboratory (Livermore) allowed an
                       employee to temporarily move to Washington, D.C. with
                       another family member. This employee was paid a
                       dislocation allowance of nearly $140,000 for the one year
                       assignment. However, the full per diem allowed by federal
                       regulations is equivalent to around $70,000, about half the
                       amount paid. In a similar example, an individual from
                       Livermore was paid about $165,000 in dislocation
                       allowances for a one year assignment and continued to
                       receive a wide range of dislocation benefits when the
                       assignment was extended for a second year.

Controls Over          Problems with contractor employee assignments to the
Facility Contractors   Washington, D.C. area occurred because Departmental
                       controls over such assignments did not include verification
                       of compliance with existing requirements or standards
                       regarding consistency or reasonableness of allowances.
                       The Department does not have an active oversight process
                       to ensure that the sponsoring program elements comply
                       with existing requirements. For example, a process does
                       not exist for evaluating whether justifications proposed by
                       program officials are complete, establish the full duration
                       of assignments, adequately consider alternative means for
                       fulfilling critical skill needs, and evaluate the
                       reasonableness of costs.



________________________________________________________________
Page 3                                            Details of Finding
_______________________________________________________

                      Office of Procurement and Assistance Management
                      (Procurement) officials – the organization responsible for
                      tracking employee assignments and reporting to Congress –
                      told us that they are not required to and do not review
                      justifications. In addition, they disagreed with our
                      conclusion that there was not an active oversight process.
                      They added that they do not have the needed technical
                      expertise to assess justifications on a program mission or
                      technical capability basis. Accordingly, they believed the
                      program official's certification that they considered all
                      pertinent items was sufficient.

                      In addition, the Department had not promulgated standards
                      for allowances for employees assigned to the Washington,
                      D.C. area. For example, the Order does not provide
                      guidance on how to evaluate and review costs prior to
                      assignment, nor does it provide parameters or limits on
                      dislocation allowances. Procurement officials stated that
                      standardizing dislocation costs across all contracts may be
                      difficult due to varying contract terms and conditions
                      among the various facility management contracts.
                      However, Department Manual 321.1-1 on
                      Intergovernmental Personnel Act Assignments, which
                      addresses assignments similar to those discussed in this
                      report, requires that contractors prepare formal cost
                      comparisons and normalization of allowance costs.

                      Our audit also identified actions that had been taken by one
                      major contractor that, if applied at other sites, could
                      significantly reduce the costs for long-duration
                      assignments. Specifically, in response to an Oak Ridge
                      Operations Office concern that temporary assignment costs
                      were high, UT-Battelle, LLC, the managing contractor of
                      the Oak Ridge National Laboratory, performed a
                      benchmark study that looked at the allowances paid by
                      12 of the Department's facility contractors. Based on this
                      study, the Oak Ridge National Laboratory was able to
                      reduce its allowances for contractor assignments and now
                      pays employees a reduced per diem for two years then
                      nothing thereafter.

Opportunities for     While we do not dispute the idea that, in many cases, the
Improvement           Department needs technical and program support from
                      facility contractor personnel, it is likely that the Department
                      is paying more than necessary to accomplish the required
                      duties. Unless all the alternatives are fully considered prior

________________________________________________________________
Page 4                                            Details of Finding
_______________________________________________________

                     to assigning facility contractor employees to the
                     Washington, D.C. area, the risk that the Department is
                     placing too much reliance on non-Federal employees will
                     continue to exist.

                     Increasing the use of support service contractors or Federal
                     employees already assigned to the Washington, D.C. area,
                     when appropriate, could result in significant savings,
                     particularly related to dislocation costs. Normalizing
                     allowances between contractors could also provide
                     additional savings. As previously noted, the Oak Ridge
                     National Laboratory has adopted a program that will
                     effectively reduce the cost of allowances for long term
                     assignments by as much as 30 percent. Such resources
                     could be applied to other pressing mission needs.

Positive Action      To its credit, after our preliminary findings were discussed
                     with Procurement officials, the Department initiated
                     actions to improve the Department's policies and
                     procedures. DOE Notice 350.2, Supplemental
                     Requirements for the Use of Management and Operating or
                     Other Facility Management Contractor Employees for
                     Services to DOE in the Washington, D.C. Area, was issued
                     on October 19, 2005, after obtaining concurrences from the
                     various organizations sponsoring facility contractor
                     assignments. The new requirements include standardizing
                     information requirements, establishing additional
                     assignment cost and duration controls, and increasing
                     senior management involvement in the review and approval
                     of contractor assignments.


RECOMMENDATIONS      To further strengthen controls over facility contractor
                     assignments to the Washington, D.C. area, we recommend
                     that the Director, Office of Procurement and Assistance
                     Management, in conjunction with the National Nuclear
                     Security Administration and cognizant program secretarial
                     officers:

                          1. Develop and implement an oversight plan to
                             ensure that requirements of the revised Order are
                             followed. In particular, ensure that sponsoring
                             organizations have:




________________________________________________________________
Page 5                                          Recommendations
_______________________________________________________

                                  a. Prepared thorough justifications that
                                     define, to the extent possible, the entire
                                     period the critical skill is needed and
                                     clearly demonstrates that alternatives were
                                     considered for meeting that need; and,

                                  b. Evaluated the reasonableness of cost, such
                                     as dislocation allowance and other
                                     benefits.

                          2. Establish guidelines for evaluating the
                             reasonableness of cost, including parameters for
                             limiting or reducing the cost of assignments.


MANAGEMENT           Management generally concurred with our
REACTION             recommendations and, as discussed earlier, issued DOE
                     Notice 350.2 to fully implement the report findings and
                     recommendations. The Notice represents the oversight
                     plan to place additional responsibilities on senior
                     Departmental management. Procurement officials
                     commented that compliance with Departmental policy,
                     procedures and controls is the responsibility of the
                     organization sponsoring contractor assignments and,
                     accordingly, they will be required to establish internal
                     review and approval procedures to ensure compliance.
                     Additionally, the Notice revises standards and adds new
                     requirements to ensure that assignment determinations and
                     approvals are based on sufficient information and to control
                     the costs and duration of these assignments.

                     In responding to a draft of this report, Management also
                     noted a few areas requiring clarification that were discussed
                     and incorporated into the report where appropriate.


AUDITOR COMMENTS     Management's comments and actions are responsive to our
                     recommendations. With the issuance of the Notice, the
                     Department faces the challenge of re-evaluating its current
                     assignments and ensuring new assignments are
                     appropriately justified and costs are reasonable.

                     Management comments are included in their entirety in
                     Appendix 3.




________________________________________________________________
Page 6                                                 Comments
Appendix 1

OBJECTIVE             The objective of this audit was to determine whether the
                      Department was adequately managing the assignment of
                      facility contractor employees to the Washington, D.C. area.


SCOPE                 The audit was performed between June 2005 and September
                      2005 at Department Headquarters and included selected
                      Department sites. We performed a review of selected
                      contractor's current assignments to the Washington, D.C.
                      area and also reviewed selected employees' assignment
                      justifications and cost analyses.


METHODOLOGY           To accomplish our audit objective, we:

                            •   Reviewed applicable laws and regulations
                                pertaining to facility contractor assignments to the
                                Washington, D.C. area;

                            •   Reviewed prior audits pertaining to facility
                                contractor assignments to the Washington, D.C.
                                area;

                            •   Reviewed program staffing plans and discussed
                                the staffing plans with program offices;

                            •   Obtained listings of current assignments to the
                                Washington, D.C. area from eight of the
                                Department's major contractors and compared
                                those listings to the Facility Contractor Database;

                            •   Obtained and reviewed assignment justifications
                                and cost analyses for 30 technical employees;

                            •   Discussed processes for assigning facility
                                contractors to the Washington, D.C. area with
                                program officials and contractors; and,

                            •   Reviewed the Fiscal Year 2004 Report to
                                Congress on the number of facility contractors in
                                the Washington, D.C. area.




________________________________________________________________
Page 7                             Objective, Scope, and Methodology
Appendix 1 (continued)

                      The audit was performed in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Because our
                      review was limited, it would not necessarily have disclosed
                      all internal control deficiencies that may have existed at the
                      time of our audit. We did not identify any performance
                      measures or goals required by the Government
                      Performance and Results Act applicable to facility
                      contractor assignments to the Washington, D.C. area. We
                      relied on limited computer processed data to accomplish
                      the audit objective. When appropriate, we performed
                      limited test work of data reliability during the audit. When
                      the test work identified weaknesses in data reliability, we
                      performed alternate steps to accomplish the audit objective.

                      We held an exit conference with management on
                      November 3, 2005.




________________________________________________________________
Page 8                             Objective, Scope, and Methodology
Appendix 2

                            PRIOR AUDIT REPORTS

  •   Facility Contractor Employee Assignments by Energy Efficiency and Renewable
      Energy (OAS-L-04-07, December 2003). This review disclosed that the Office of
      Energy Efficiency and Renewable Energy (EERE) and the National Renewable
      Energy Laboratory (NREL) had not followed requirements for assigning facility
      contractor employees to the Washington, D.C. area. Specifically, EERE assigned
      seven facility contractor employees to Headquarters, but did not notify the
      Department or include them in the facility contractor database. Despite strict
      prohibitions to the contrary, NREL procured the technical services of a facility
      contractor employee on EERE's behalf and assigned that individual to
      Washington, D.C. By not ensuring that the Department was fully informed about
      the number of contractor employees assigned to Headquarters, EERE placed the
      Department at risk of exceeding the Congressional ceiling on the assignment of
      such employees.

  •   Follow-Up Audit on the Department's Management of Field Contractor
      Employees Assigned to Headquarters and Other Federal Agencies
      (OAS-L-03-03, December 2002). This audit found that overall, the Department
      had improved its management and use of field contractors assigned to
      Headquarters and has taken corrective actions that satisfy the intent of the
      recommendations outlined in the prior audit reports. However, this audit did find
      that enhancements could be made to the Department's Facility Contractor
      Employee Database to make it more valuable to Headquarters Program elements.
      Specifically, the database lacked the data needed to ascertain total program
      funding requirements. For example, the database could not identify funding
      levels for employees that were funded by multiple programs; instead, multi-
      funded employees were recorded under only one sponsor.

  •   Audit of the Department of Energy's Management of Field Contractor Employees
      Assigned to Headquarters and Other Federal Agencies (DOE/IG-0414, December
      1997). This audit found that the Department did not effectively manage the use of
      field contractor employees assigned to Headquarters and other Federal agencies.
      Specifically, the Department was unable to identify all contractor employees
      assigned to the Washington, D.C. area or determine the total cost of maintaining
      them; some employees were providing routine support and administrative services
      rather than unique program expertise; and several of the Department's contractors
      had assigned their employees to work in other agencies without receiving full
      reimbursement for their services. This audit identified over 800 field contractor
      employees working in the Washington, D.C. area, while Procurement's database
      had slightly more than 400. In addition, the Department did not fully implement
      the corrective actions it agreed to in the prior audit report.




________________________________________________________________
Page 9                                          Prior Audit Reports
Appendix 2 (continued)


  •   The Department of Energy Program Offices' Use of Management and Operating
      Contractor Employees (DOE/IG-0392, July 1996). This audit found that 378
      laboratory employees were assigned to the Washington, D.C. area for periods of
      six months or longer, at least 220 of whom provided a wide range of
      administrative and technical support services directly to the program offices. In
      addition, these employees worked on projects which have the potential to impact
      their laboratory employers. These conditions occurred because the Department
      had not clearly defined the proper use of laboratory employees and had not
      established a system to periodically review their proper usage. Further, the
      Department was not fully aware of the magnitude of reliance on laboratory
      employee support or the associated cost implications. As a result, laboratory
      contract employees were involved in programmatic and policy arenas in which
      real or perceived conflicts may exist between their official duties and the tasks
      they assume when serving the Department program offices and the Department
      may be augmenting its federal workforce in a way that might not be cost-effective
      and consistent with its staffing objectives.




________________________________________________________________
Page 10                                         Prior Audit Reports
Appendix 3




________________________________________________________________
Page 11                                     Management Comments
                                                             IG Report No. DOE/IG-0710

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
